                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: 113010004                                                                 Page 1 of 1



         We were contacted about a potentially fraudulent check, which appeared to be written on a
         federal agency's 1 bank account. We contacted the bank2 on which the check originated, which
         confirmed the check was fraudulent; therefore, there was no harm to the federal agency.

         Accordingly, this case is closed.




         1
             Arctic Research Commission
         2
             Apple Federal Credit Union




NSF OIG Fonn 2 (11/02)
